Contrato de Cuenta de la Tarjeta Wells Fargo Cash Back College Visa® – Wells Fargo

Page 1 of 11

Contrato de Cuenta de la Tarjeta Wells Fargo Cash Back College
Visa®
Explorar características y beneficios

Contrato Del Cliente Y Declaración De Divulgación De Tarjeta De Crédito Para El Consumidor
Wells Fargo Cash Back College Visa® Card
ÍNDICE
Su Contrato con Nosotros:

Sección 1

Uso de Su Cuenta:

Sección 4

Cambios a Este Contrato:

Sección 10

Cargos e Intereses:

Sección 11

Estados de Cuenta y Pagos:

Sección 19

Otra Información Importante:

Sección 21

Arbitraje:

Sección 31

Sus Derechos en Relación con la Facturación:

Sección 32

Miembros de las Fuerzas Armadas en Servicio Militar Activo y sus Dependientes:

Sección 33

Su Contrato con Nosotros
Conversión de Su Cuenta. Si su cuenta se mantiene al día, es posible que su cuenta se convierta a una tarjeta de crédito que no es para universitarios una vez
que usted se gradúe de la universidad. No todas las cuentas calificarán para una conversión.
(1) Contrato. Este contrato para su cuenta de tarjeta de crédito (la "Cuenta") incluye el Contrato de Tarjeta de Crédito (el "Contrato"), los Términos y Condiciones
Importantes de su Cuenta de Tarjeta de Crédito y futuras modificaciones a este Contrato. Este Contrato se celebra entre Wells Fargo Bank, N.A. y cada Titular de
Cuenta. Usted y todo Titular de la Cuenta Conjunta aceptan los términos y condiciones de este Contrato al usar o activar su Cuenta. Lea este Contrato
detenidamente y guárdelo para sus registros.

(2) Definiciones.

Tasa Porcentual Anual
(APR, por sus siglas en
inglés)

Ciclo de Facturación o
Período de Facturación

Transferencia de Saldo

Tarjeta

Una tasa, en forma de porcentaje, utilizada para calcular los intereses sobre el saldo de su Cuenta.

El período entre estados de cuenta. Cada estado de cuenta muestra una fecha de cierre del estado de cuenta que es el último día del
Ciclo de Facturación.

La transferencia de un saldo desde otra cuenta de crédito a su Cuenta, incluido el uso de un cheque con acceso a su Cuenta.
Cualquier tarjeta que emitamos para usted o cualquier dispositivo que le permitamos utilizar para tener acceso al crédito de su
Cuenta.
Uso de su Tarjeta para obtener efectivo. Los ejemplos incluyen utilizar su tarjeta para Adelantos en Efectivo a través de un cajero

Adelanto en Efectivo

Dispositivo de Acceso
al Crédito

automático (ATM), por cajero(a) o a través de la Banca por Internet Wells Fargo Online, para adelantos de Protección contra
Sobregiros, Transferencias de Saldo, o compras similares a efectivo, tales como giros postales, giros electrónicos, cheques de
viajero, moneda extranjera, boletos de lotería, fichas de casino, apuestas externas, otras apuestas y los vales canjeables por efectivo
o artículos similares.
Un dispositivo, aparte de su Tarjeta, como SUPERCHECKS™ y dispositivos móviles, que le permitimos usar para tener acceso al
crédito de su Cuenta.

https://www.wellsfargo.com/es/credit-cards/agreements/cash-back-college-card-agreement

3/31/2021

Contrato de Cuenta de la Tarjeta Wells Fargo Cash Back College Visa® – Wells Fargo

Page 2 of 11

Términos y Condiciones Un resumen de las Tasas APR, los cargos y otra información importante de su Cuenta.
Importantes de su Cuenta
de Tarjeta de Crédito

Nuevo Saldo

Saldo Pendiente

Fecha de Vencimiento del
Pago

Compra

Límite de Crédito

El monto total que usted adeuda a la fecha de cierre del estado de cuenta.
La suma de todos los montos impagos, incluidas Compras, Adelantos en Efectivo, Transferencias de Saldo, intereses, cargos y
cualquier otro monto que usted pueda adeudarnos.
La fecha en la que vence el Pago Mínimo. Será por lo menos 25 días después de la fecha de cierre del estado de cuenta y se indicará
en su estado de cuenta.
Uso de su Cuenta para comprar o arrendar bienes o servicios. Los Adelantos en Efectivo, las Transferencias de Saldo y las
transacciones similares a efectivo no son Compras. Los pagos de impuestos y los cargos asociados son Compras.
Este es el monto que está disponible para que usted lo utilice.

Nosotros, Nos, Nuestro(a) Wells Fargo Bank, N.A.
y Nuestros(as)

Usted y Su(s)

El (los) Titular(es) de la Cuenta que abrió (abrieron) la Cuenta.

(3) Cómo Nos Comunicaremos Con Usted. Usted acuerda que nos ha dado su consentimiento para comunicarnos con usted a cualquier número de teléfono,
dirección de correo electrónico, o dirección de correo postal que usted proporcione para cualquier cuenta de Wells Fargo o a cualquier número del que nos llame o
a cualquier número que obtengamos por otros medios. Su consentimiento nos permite a nosotros y a todas las compañías que trabajan en nuestro nombre
administrar su cuenta, utilizar cualquier medio para comunicarnos con usted, incluidos: dispositivos de discado automatizado, mensajes pregrabados/de voz
artificial, correo postal, correo electrónico, mensajes de texto, notificaciones push, y llamadas a su teléfono celular, o cualquier otra tecnología de transmisión de
datos o de voz. Usted es responsable de cualquier cargo del proveedor de servicio en el que usted pueda incurrir como resultado de que nos comuniquemos con
usted por cualquier medio, ya sea que dichos cargos estén relacionados con mensajes de texto, datos, equipos u otros planes. Usted acuerda notificarnos de
inmediato si cambia cualquier información de contacto, incluidos su nombre, dirección postal, direcciones de correo electrónico o números de teléfono. Si tiene una
Cuenta conjunta, un aviso a uno de ustedes se considerará un aviso a los dos. Podemos utilizar tecnología de reconocimiento de voz para verificar su identidad
cuando usted llame. Podemos captar y almacenar su impresión vocal para este fin. Podremos monitorear y grabar cualquier llamada telefónica entre usted y
nosotros.
Volver al comienzo
Uso de Su Cuenta
(4) Uso de Su Cuenta. Puede usar su Cuenta de tarjeta de crédito para el consumidor para realizar Compras, Transferencias de Saldo, Adelantos en Efectivo y
cualquier otra transacción que le permitamos realizar. Usted promete usar su Cuenta únicamente para fines legales personales, familiares o de la unidad familiar.
Nos reservamos el derecho de rechazar transacciones o autorizaciones de comercios que puedan estar involucrados en el negocio de apuestas por Internet. No
somos responsables si alguien se niega a aceptar su Tarjeta o cualquier otro Dispositivo de Acceso al Crédito. Podemos rechazar cualquier transacción en
cualquier momento. Su tarjeta de crédito no puede usarse para efectuar un pago en ninguna otra cuenta de crédito de Wells Fargo.

Adelantos en Efectivo en cajeros automáticos (ATM). Los Adelantos en Efectivo en ATM pueden limitarse en función del monto o la frecuencia. El propietario
del ATM puede tener restricciones adicionales. Si el propietario del ATM cobra cualquier cargo, dicho cargo se incluirá como parte del monto total del Adelanto en
Efectivo.

Adelantos en Efectivo para Protección contra Sobregiros. Puede optar por que se realice un Adelanto en Efectivo automático de su Cuenta para cubrir un
sobregiro en una cuenta de cheques de Wells Fargo vinculada. Para cubrir un sobregiro en una cuenta de cheques de Wells Fargo vinculada, haremos un adelanto
de lo que resulte mayor entre
◦ el monto de su sobregiro; o
◦ $25.00
Excepto si
◦ el monto del crédito disponible en su Tarjeta es inferior al monto del sobregiro o inferior a $25.00, entonces haremos un adelanto del monto de crédito
disponible.
La Tasa APR y los cargos que se aplican a los adelantos de protección contra sobregiros se indican en los Términos y Condiciones Importantes de Su Cuenta de
Tarjeta de Crédito. Los adelantos de protección contra sobregiros, los intereses y cargos pueden ocasionar que el saldo de su Cuenta supere su límite de crédito.
Si hubiera más de una persona mencionada en la cuenta de cheques (como una cuenta de cheques conjunta) que usted haya vinculado para la protección contra
sobregiros, entonces:

https://www.wellsfargo.com/es/credit-cards/agreements/cash-back-college-card-agreement

3/31/2021

Contrato de Cuenta de la Tarjeta Wells Fargo Cash Back College Visa® – Wells Fargo

Page 3 of 11

◦ Usted será responsable de todos los adelantos de protección contra sobregiros, independientemente de la persona que gire el cheque o que participe en
cualquier otra transacción (como una compra con tarjeta de débito) que origine el sobregiro; y
◦ Usted nos autoriza a divulgar a cualquier otra persona en su cuenta de cheques que esta Tarjeta está vinculada a su cuenta de cheques para la protección
contra sobregiros.
Nos reservamos el derecho de cancelar, suspender o modificar su servicio de protección contra sobregiros en cualquier momento y por cualquier motivo.

Dispositivos de Acceso al Crédito. Los SUPERCHECKS pueden utilizarse para acceder a su Cuenta de manera similar a cuando se gira un cheque en una
cuenta de depósito. Los cheques SUPERCHECKS se registrarán como una Transferencia de Saldo sólo cuando se incluyan con una oferta de Transferencia de
Saldo. Si un cheque SUPERCHECKS no se incluye con una oferta de Transferencia de Saldo se registrará como un Adelanto en Efectivo. Los SUPERCHECKS
incluirán cargos por transacción e intereses.

Se aplican ciertas restricciones a los SUPERCHECKS:
◦ No pueden ser girados como pago en ninguna cuenta de Wells Fargo.
◦ Solo pueden ser usados por la persona cuyo nombre esté impreso en el cheque.
◦ Deben ser girados en dólares estadounidenses.
◦ No pueden ser certificados.
◦ Usted no puede presentar un reclamo contra el banco cuando tiene una disputa con un comercio en relación con el pago de bienes o servicios por los que usted
pagó utilizando un cheque SUPERCHECKS.
◦ Nos reservamos el derecho de establecer condiciones sobre el uso de los cheques SUPERCHECKS y de rechazar, negar y devolver impago cualquier cheque
SUPERCHECKS o adelanto a nuestro criterio.
Dispositivos de Terceros/Móviles. Usted o un usuario autorizado puede tener permitido cargar su tarjeta de crédito en una app en un smartphone (teléfono
inteligente), tableta u otro dispositivo electrónico, como por ejemplo, a través de una billetera móvil, que podría ser utilizado para las compras u otras transacciones
sin presentar la tarjeta. Cualquiera de dichas transacciones se encuentra cubierta por este Contrato. No tenemos control sobre el dispositivo y no podemos
garantizar el funcionamiento del dispositivo.
Además:
◦ Debe proteger la seguridad del dispositivo del mismo modo que protege su tarjeta de crédito u otra información valiosa.
◦ Es posible que usted incurra en cargos de terceros relacionados con la transacción, como cargos por datos o por mensajería de texto del proveedor de telefonía
móvil.
◦ Podremos en cualquier momento restringir parcial o totalmente su capacidad para realizar transacciones de crédito a través de un dispositivo de terceros/móvil.
Usted acuerda notificarnos de inmediato en caso de que elimine o desee eliminar la información de su Cuenta de cualquier dispositivo de terceros/móvil.
(5) Sin Usuarios Autorizados.

(6) Tarjetas Perdidas o Robadas y Responsabilidad por Uso No Autorizado, y Protección de Cero Responsabilidad. Usted debe notificarnos de inmediato si
pierde o le roban su Tarjeta o información de su cuenta, o si cree que están usando su Cuenta sin su permiso. Puede comunicarse con nosotros por teléfono
llamando al 800-642-4720 (marque 9 para recibir atención en español) o escribiendo a Wells Fargo Card Services, PO Box 10347, Des Moines, IA 50306. Usted
acuerda ayudarnos en nuestra investigación del asunto. Si lo hace y determinamos que no es responsable, no será responsable del uso no autorizado de su
Cuenta.

(7) Promesa de Pago. Cuando utiliza su Cuenta o le permite a otra persona utilizarla, usted promete pagar el monto total de las Compras, Adelantos en Efectivo y
Transferencias de Saldo, más todos los intereses, cargos y otros montos que pueda adeudarnos. Podremos limitar o cerrar su Cuenta, pero los términos y
condiciones de este Contrato se aplicarán hasta que la Cuenta se haya pagado por completo.

(8) Límite de Crédito. Podemos asignar los siguientes límites a su Cuenta:
Límite para Adelantos en Efectivo. Podemos restringir el monto de su límite de crédito que puede utilizarse para Adelantos en Efectivo.
El total de su límite de crédito se proporcionará con su Tarjeta de Crédito y se muestra en cada uno de sus estados de cuenta. Usted promete usar su Cuenta
solamente hasta los límites. Si usted supera el total de su límite de crédito, podemos autorizar la transacción sin aumentar el total de su límite de crédito, o rechazar
la transacción. Si permitimos que se realice la transacción, podemos tratar a ese monto sobre el límite como adeudado con el pago mínimo en su próximo estado
de cuenta. Si usted supera los límites, seguirá siendo responsable de todo el crédito que reciba. Podemos ajustar su límite de crédito en cualquier momento,
incluidos aumentos automáticos de la línea de crédito para las personas que califican.

https://www.wellsfargo.com/es/credit-cards/agreements/cash-back-college-card-agreement

3/31/2021

Contrato de Cuenta de la Tarjeta Wells Fargo Cash Back College Visa® – Wells Fargo

Page 4 of 11

(9) Autorizaciones. No garantizamos la aprobación de las transacciones. Nos reservamos el derecho de rechazar transacciones por cualquier motivo, incluidos
incumplimiento en la cuenta, sospecha de actividad fraudulenta o ilegal, apuestas por Internet o cualquier indicio de aumento del riesgo en relación con la
transacción. Si usted participa en actividades de abuso, uso indebido o aprovechamiento malicioso en relación con la obtención o el uso de puntos, o intenta
hacerlo, podremos cerrar o restringir su(s) tarjeta(s) de crédito de Wells Fargo. Las actividades de abuso, uso indebido y aprovechamiento malicioso incluyen, sin
limitación, realizar múltiples compras y múltiples pagos durante un ciclo de facturación por medio de lo cual la suma del monto en dólares de todas las compras
excede de manera significativa su límite de crédito. Podemos limitar la cantidad de autorizaciones que permitimos durante un período.
Las transacciones efectuadas en algunos comercios (como hoteles, compañías de alquiler de automóviles, restaurantes y gasolineras) pueden dar lugar a
autorizaciones temporales por montos superiores al monto real de la Compra. Esto hará que el crédito disponible en su Cuenta sea menor durante varios días,
generalmente hasta la fecha en que se reciba del comercio el monto real de la Compra.
Si usted le proporciona la información de su tarjeta de crédito a un comercio para que facture en su cuenta pagos recurrentes, o para que la mantenga en archivo
para futuras compras o pagos, y su número de tarjeta, fecha de vencimiento, o código de seguridad cambian, usted debe notificar al comercio la nueva información
de su tarjeta. Las principales redes de tarjetas ofrecen servicios de actualización y reciben información actualizada de Wells Fargo sobre la tarjeta. Los comercios
que participan en dichos servicios recibirán información actualizada de la red sobre las tarjetas de crédito que usted haya proporcionado al comercio para compras
o pagos recurrentes o futuros. No podemos informarle qué comercio recibirá información actualizada de la tarjeta cuando la información de su tarjeta cambie.
Siempre debe proporcionar a cada comercio la información de su nueva tarjeta debido a que algunos comercios no se suscriben a tales servicios de red.
Volver al comienzo
Cambios a Este Contrato
(10) Cambio en los Términos y Condiciones. Podemos cambiar este Contrato en cualquier momento. Estos cambios se pueden aplicar a saldos existentes y
futuros. Le enviaremos una notificación por escrito con antelación de los cambios y tendrá derecho a rechazar los cambios, si la ley lo exige. Podemos exigirle que
cierre su Cuenta o tomar otras medidas si usted rechaza los cambios.
Volver al comienzo
Cargos e Intereses
(11) Cargos. Los siguientes cargos pueden aplicarse a su cuenta. Si efectivamente se aplican, encontrará el monto en los Términos y Condiciones Importantes de
Su Cuenta de Tarjeta de Crédito. Usted acuerda pagar los siguientes cargos que se apliquen.
◦ Cuota Anual. Si su cuenta tiene una cuota anual, esta se le cobrará todos los años mientras su cuenta esté abierta. La cuota anual no se facturará después del
cierre de su Cuenta.
◦ Cargo por Transferencia de Saldo. Este cargo puede cobrarse sobre una transacción de Transferencia de Saldo.
◦ Cargo por Adelantos en Efectivo. Este cargo puede cobrarse sobre un Adelanto en Efectivo de su Cuenta.
◦ Cargo por Adelantos de Protección contra Sobregiros. Este cargo puede cobrarse cuando se realiza un adelanto de un monto de sobregiro en la cuenta de
cheques que usted haya vinculado a su Cuenta de Tarjeta de Crédito.
◦ Cargo por Conversión de Moneda Extranjera. Si usted efectúa una transacción en una moneda extranjera, Visa la convertirá a un monto en dólares
estadounidenses. Se puede cobrar un cargo por conversión de moneda extranjera cuando se realiza este procedimiento.
◦ Cargo por Pago Atrasado. Este cargo puede cobrarse cada vez que no recibamos el Pago Mínimo adeudado requerido a más tardar en la Fecha de
Vencimiento del Pago.
◦ Cargo por Cheque Devuelto o Pago Devuelto. Este cargo puede cobrarse cuando un pago no se procesa la primera vez o si el pago es devuelto sin pagar.
◦ Cargo por Entrega Rápida de Tarjeta. Este cargo puede cobrarse si usted solicitó la entrega rápida de su tarjeta de crédito.
Pueden cobrarse cargos adicionales si usted y nosotros así lo acordamos. Todos los cargos se sumarán al saldo de Compras, excepto los cargos por Adelantos en
Efectivo y los cargos de Protección contra Sobregiros, que se sumarán al saldo de Adelantos en Efectivo en su Cuenta.

(12) Transacciones en Moneda Extranjera.
Si usted efectúa una transacción en una moneda que no sea el dólar estadounidense con una Tarjeta Visa, entonces Visa International ("Visa") convertirá el cargo
a un monto en dólares estadounidenses. El tipo de cambio entre la moneda de la transacción y la moneda de facturación usada para procesar transacciones
internacionales es (a) un tipo de cambio seleccionado por Visa entre la variedad de tipos de cambio disponibles en los mercados mayoristas de monedas para la
fecha de procesamiento central aplicable; dicho tipo de cambio puede ser diferente del tipo de cambio que recibe Visa, o (b) el tipo de cambio ordenado por el
gobierno en vigencia para la fecha de procesamiento central aplicable. La tasa de conversión de moneda para la fecha de procesamiento puede ser diferente de la
tasa en vigencia en la fecha de la transacción o la fecha en que la transacción se registre en su Cuenta.

Conversión en el Punto de Venta. Algunos comercios fuera de los Estados Unidos ofrecen a los titulares de tarjeta la opción de que sus transacciones de Tarjeta
sean convertidas a dólares estadounidenses por Visa, según lo descrito arriba, o por el mismo comercio. Si se elige esta última opción, la tasa de conversión de
moneda es determinada exclusivamente por el comercio que participe en la transacción, y el Banco no aplicará ningún cargo por conversión de moneda extranjera
a la transacción.

https://www.wellsfargo.com/es/credit-cards/agreements/cash-back-college-card-agreement

3/31/2021

Contrato de Cuenta de la Tarjeta Wells Fargo Cash Back College Visa® – Wells Fargo

Page 5 of 11

(13) Tasas. Las siguientes secciones describen cómo calculamos los intereses que usted adeuda en cada Período de Facturación. Los Términos y Condiciones
Importantes de Su Cuenta de Tarjeta de Crédito indican las Tasas APR que se aplican para los diferentes tipos de saldos.
Tasas Introductorias. Su cuenta puede ser elegible para tasas introductorias. Esto se describe en los Términos y Condiciones Importantes de su Cuenta de
Tarjeta de Crédito. Si se ofrece una tasa promocional después de la apertura de su Cuenta, los términos y condiciones se proporcionarán en ese momento.
Después del vencimiento de cualquier tasa introductoria o promocional, los saldos restantes estarán sujetos a los términos y condiciones aplicables de la Tasa APR
Estándar o Variable Estándar.
Cómo Calculamos sus Tasas APR Variables Estándar. Si su cuenta tiene una tasa variable, la Tasa APR variará en función de la Tasa de Interés Preferencial
de los EE. UU. más el "Margen" aplicable. Consulte en los Términos y Condiciones Importantes de su Cuenta de Tarjeta de Crédito el "Margen" sobre las Compras,
las Transferencias de Saldo, los Adelantos en Efectivo y los adelantos de protección contra sobregiros, y las tasas periódicas diarias que se aplican a su Cuenta.
Para cada Período de Facturación, utilizamos la Tasa de Interés Preferencial de los EE. UU. o el promedio de las Tasas de Interés Preferenciales de los EE. UU.
(si hay más de una) publicadas en la columna "Money Rates" del periódico The Wall Street Journal tres días laborables antes de la fecha de cierre de su estado de
cuenta. Si la Tasa de Interés Preferencial de los EE. UU. no se publica más o no está disponible, podemos seleccionar un índice similar. Un cambio en la Tasa
APR puede aumentar o disminuir el monto total de intereses que usted pague y su Pago Mínimo adeudado. Si la Tasa APR cambia debido a un cambio en la Tasa
de Interés Preferencial de los EE. UU., la nueva Tasa APR se aplicará a los saldos existentes y futuros a partir del primer día de su Ciclo de Facturación. La Tasa
APR continuará variando, incluso si su Cuenta se cierra.
Tasas APR Estándar. Si su Cuenta está sujeta a las Tasas APR Estándar, las Tasas APR Estándar no variarán con el mercado conforme a la Tasa de Interés
Preferencial de los EE. UU. Sin embargo, ocasionalmente podremos cambiar las Tasas APR Estándar, de acuerdo con la información de Cambio en los Términos y
Condiciones que se describe en la sección 10. Las tasas que se aplican a su cuenta se indican en los Términos Importantes de su Cuenta de Tarjeta de Crédito.
Tasas Periódicas Diarias. Las tasas periódicas diarias se calculan dividiendo cada Tasa APR aplicable por 365.

(14) Cargo Mínimo por Intereses. Su Cuenta puede tener un Cargo Mínimo por Intereses. Consulte los Términos y Condiciones Importantes de Su Cuenta de
Tarjeta de Crédito para ver el cargo que se aplica.

(15) Cuándo cobramos intereses. Para la mayoría de las transacciones, se cobrarán intereses a partir de la fecha en que se realiza una transacción en su
cuenta. Cobramos intereses sobre un cargo a partir del primer día del Ciclo de Facturación que sigue al Ciclo de Facturación en el que el cargo se registre en su
Cuenta.

(16) A continuación, le explicamos cómo y cuándo se aplican Transacciones, cargos y créditos específicos:
◦ Sumamos el monto de una Compra o Transferencia de Saldo al saldo de la Compra a partir de la fecha de la transacción que se indica en su estado de cuenta.
◦ Sumamos cargos por Transferencia de Saldo al saldo de la Compra a partir de la fecha de la transacción que se indica en su estado de cuenta.
◦ Sumamos el monto de un Adelanto en Efectivo al saldo de Adelantos en Efectivo a partir de la fecha de la transacción que se indica en su estado de cuenta.
◦ Sumamos Cargos por Adelantos en Efectivo al saldo de Adelantos en Efectivo a partir de la fecha de la transacción que se indica en su estado de cuenta.
◦ Sumamos el monto de cualquier adelanto de Protección contra Sobregiros al saldo de Adelantos en Efectivo a partir de la fecha de la transacción que se indica
en su estado de cuenta.
(17) Cómo Calculamos los Intereses. Comenzamos mediante el cálculo del saldo diario de cada categoría de Transacción. Luego, calculamos el Saldo
Diario Promedio (ADB, por sus siglas en inglés). Por último, calculamos los intereses. Consulte cada sección a continuación para obtener información detallada.
1.

Cálculo del saldo diario: El saldo diario se calcula por separado para cada categoría de Transacción. Comenzamos con el saldo diario desde el
final del día anterior. Sumamos todas las Transacciones nuevas y otros cargos, incluidos los intereses acumulados en el saldo del día anterior. Esto
quiere decir que el interés es capitalizado diariamente. Luego, restamos todo pago o crédito.
Ejemplo de la categoría Transacción de Compra:
Saldo diario para compras del día anterior
+ Compras nuevas
+ Cargos e intereses acumulados en el saldo de la categoría Transacción del día anterior
- Pagos, créditos y ajustes registrados ese día
= Nuevo saldo diario para Compras

2.

Cálculo del Saldo Diario Promedio (ADB, por sus siglas en inglés): Sumamos todos los saldos diarios correspondientes al Ciclo de Facturación
comenzando por el saldo inicial en el primer día del Ciclo de Facturación. Este saldo inicial incluirá todos los cargos impagos desde el Ciclo de
Facturación anterior y todos los cargos por pago atrasado incurridos durante el Ciclo de Facturación actual. Cualquier saldo diario que sea un saldo
de crédito se tratará como saldo en cero. Dividimos este monto por la cantidad de días del Ciclo de Facturación.
ADB = suma de los saldos diarios ÷ la cantidad de días del Ciclo de Facturación.

https://www.wellsfargo.com/es/credit-cards/agreements/cash-back-college-card-agreement

3/31/2021

Contrato de Cuenta de la Tarjeta Wells Fargo Cash Back College Visa® – Wells Fargo

3.

Page 6 of 11

Cálculo de Intereses: Calculamos el cargo por intereses para cada tipo de saldo aplicando la tasa periódica diaria al ADB y multiplicando esto por la
cantidad de días en el Ciclo de Facturación.
Cargo por Intereses = tasa periódica diaria x ADB x cantidad de días del Ciclo de Facturación.

(18) Período de Gracia. Para evitar pagar intereses sobre las nuevas Compras, tendrá que pagar el total de su Nuevo Saldo a más tardar en la Fecha de
Vencimiento que figura en su estado de cuenta en cada Período de Facturación. No se pueden evitar los intereses sobre los Adelantos en Efectivo o las
Transferencias de Saldo. La fecha de vencimiento será por lo menos 25 días después de la fecha de cierre del estado de cuenta y se indicará en su estado de
cuenta.
Volver al comienzo
Estados de Cuenta y Pagos
(19) Estados de Cuenta. Si tiene un saldo en su cuenta, recibirá un estado de cuenta. Su estado de cuenta incluirá su Pago Mínimo Adeudado y su Fecha de
Vencimiento del Pago.

(20) Pagos. Puede pagar la totalidad o una parte del saldo de su Cuenta en cualquier momento, pero debe pagar el Pago Mínimo, divulgado en su estado de
cuenta, a más tardar en la Fecha de Vencimiento del Pago.

Pago Mínimo. Su Pago Mínimo Adeudado incluye cualquier monto atrasado más la cantidad que resulte mayor entre:
1. La suma de los cargos por pago atrasado, cheque devuelto, pago devuelto, entrega rápida de tarjeta, la cuota anual y los intereses facturados durante el
Ciclo de Facturación para el cual se calcula el Pago Mínimo más el 1% del Nuevo Saldo que aparece en el estado de cuenta; o
2. $25.00 (o el saldo completo en la Cuenta, si el Nuevo Saldo es inferior a $25.00).

Requerimos que usted pague cualquier monto que supere el límite de su cuenta de tarjeta de crédito. Sin embargo, dicho monto no se incluye en su Pago Mínimo
Adeudado.
El Pago Mínimo se redondea al próximo monto en dólares entero más alto. Los créditos no se utilizarán para cubrir el Pago Mínimo.
Instrucciones de Pago. Siga estas instrucciones cuando efectúe un pago:
1. Usted debe pagar en dólares estadounidenses.
2. El pago debe efectuarse con un cheque personal, un giro postal o un cheque de caja y debe ser girado por un banco de los Estados Unidos.
3. Se aceptan pagos electrónicos.
4. No envíe efectivo por correo postal.

Si decide efectuar un pago por correo postal, envíe el pago a la dirección de pago indicada en su estado de cuenta y utilice el sobre y el cupón de pago que se
adjuntan. Los pagos recibidos a más tardar a las 5:00 p.m. en la sucursal a la cual se envía el pago por correo postal se acreditarán en la fecha en que se reciban.
Si se reciben después de las 5:00 p.m. se acreditarán al día siguiente. Los pagos realizados a través de la Banca por Internet Wells Fargo Online en
wellsfargo.com/spanish se acreditarán según la hora de corte divulgada en el momento de la transacción. Si no sigue estas instrucciones, su pago podría no
acreditarse hasta por cinco días a partir de la fecha en que lo recibamos.
Los cheques u otros documentos impresos pueden convertirse en una transacción electrónica a través de los procedimientos establecidos por la Asociación
Nacional de Cámaras de Compensación Automatizadas (NACHA, por sus siglas en inglés). Si esto sucede, no conservaremos el cheque original ni otro documento
que nos envíe, pero habrá una copia disponible a solicitud.
Es posible que se retenga parte de su línea de crédito disponible, a nuestro criterio, hasta que su pago sea aceptado.
Usted no puede pagar esta cuenta utilizando una cuenta de crédito o de préstamo de Wells Fargo Bank, N.A. ni una cuenta de crédito o de préstamo de cualquier
compañía afiliada a Wells Fargo. Usted no puede utilizar cheques SUPERCHECKS para efectuar ningún pago en esta Cuenta.
Por lo general, aplicaremos su Pago Mínimo primero a los saldos con Tasas APR más bajas (por ejemplo, Compras) antes que a los saldos con Tasas APR más
altas (por ejemplo, Adelantos en Efectivo). Los pagos recibidos que superen el Pago Mínimo se aplicarán primero a los saldos con Tasas APR más altas, antes que
a los saldos con Tasas APR más bajas.
Registramos los pagos en el Ciclo de Facturación durante el cual se reciban. Todo pago que exceda el Pago Mínimo adeudado se aplica en función de los saldos
reflejados en su último estado de cuenta.

Pagos Irregulares. Si usted tiene la intención de realizar el pago de su Cuenta por completo con un monto inferior al Saldo Pendiente, debe enviarnos los pagos a:

https://www.wellsfargo.com/es/credit-cards/agreements/cash-back-college-card-agreement

3/31/2021

Contrato de Cuenta de la Tarjeta Wells Fargo Cash Back College Visa® – Wells Fargo

Page 7 of 11

Wells Fargo, P.O. Box 10311, Des Moines, IA 50306-0311. Tenga en cuenta que si aceptamos tales pagos tenemos todo el derecho de procurar obtener el pago
total.
Volver al comienzo
Otra Información Importante
(21) Incumplimiento/Pago Inmediato del Saldo Total. Su Cuenta estará en situación de incumplimiento y podemos exigir el pago inmediato del total de su
Cuenta si:
◦ No efectúa el Pago Mínimo a más tardar en la Fecha de Vencimiento del Pago;
◦ Se devuelve cualquier pago;
◦ Usted no cumple con los términos y condiciones de este Contrato;
◦ Usted hizo una declaración falsa en su solicitud; O
◦ Ha presentado una declaración de quiebra.
Si esta es una Cuenta conjunta, el incumplimiento por parte de uno de ustedes se considerará incumplimiento por parte de todos ustedes.
Podemos evitar que realice otras transacciones y podemos cerrar su Cuenta y otras cuentas de Wells Fargo. Si su Cuenta está en situación de incumplimiento,
usted acuerda pagar nuestros costos de cobranza, honorarios de abogado y costos judiciales incurridos para hacer valer nuestros derechos en virtud de este
contrato.

(22) Nueva Verificación de la Información de Crédito. Podemos revisar cualquier información que usted haya proporcionado en su solicitud de crédito en
cualquier momento. Esto puede incluir:
◦ Solicitar informes de agencias de información crediticia;
◦ Verificar su solvencia crediticia actual.
◦ Verificar su empleo, activos y registros de ingresos.
(23) Residentes de California. También podemos obtener información en cualquier momento del Departamento de Vehículos Motorizados de California. Usted
acuerda renunciar a la sección de requisitos sobre confidencialidad en relación con direcciones del Código de Vehículos de California (Sección 1808.21).

(24) Cancelación. Podremos cerrar su Cuenta en cualquier momento y por cualquier motivo. Usted también puede cerrar la Cuenta en cualquier momento. Si esto
sucede, usted de todos modos debe pagar el saldo adeudado de acuerdo con los términos y condiciones de este Contrato. Las cuentas conjuntas pueden ser
canceladas por cualquiera de los Titulares de la Cuenta. Si cerramos la cuenta, el aviso podrá ser proporcionado solo a uno de los Titulares de la Cuenta.

(25) Separación de disposiciones ilegales. Si se determina que alguna disposición de este Contrato no es ejecutable, el resto de las disposiciones del Contrato
permanecerá en vigencia.

(26) Ejecución de Derechos. Podríamos renunciar a la ejecución de cualquiera de nuestros derechos o demorar dicha ejecución, sin perderlos. Una sentencia de
divorcio o de separación o un acuerdo a no litigar no afecta ninguno de nuestros derechos para hacer valer este Contrato.

(27) Monitoreo de Llamadas Telefónicas. Podemos monitorear y grabar sus llamadas telefónicas con nosotros.

(28) Presentación de Información. Podemos reportar información sobre usted a las agencias de informes de crédito del consumidor. La información que
proporcionamos a las agencias de informes de crédito del consumidor puede incluir:
◦ Historial de cuenta;
◦ Desempeño en relación con la cuenta;
◦ Estado de la cuenta;
◦ Cualquier violación de su cuenta; y
◦ Cualquier violación de los términos y condiciones de este Contrato.
La misma información puede ser reportada a las agencias de informes de crédito del consumidor para cualquiera de los titulares de tarjeta adicionales. Usted
puede disputar la exactitud de la información que reportamos a las agencias de informes de crédito del consumidor escribiéndonos a Wells Fargo Credit Bureau
Dispute Resolution, P.O. Box 14517, Des Moines, IA 50306-3517. Describa en detalle la información que usted cree que es incorrecta y proporcione todos los
documentos de respaldo con su disputa. Si su disputa está relacionada con un robo de identidad, deberá proporcionarnos un informe de robo de identidad.

(29) Cesión. Nosotros podemos ceder su Cuenta y todos o cualquiera de los derechos y obligaciones en virtud del Contrato a un tercero. Usted no puede ceder su
Cuenta o cualquiera de sus obligaciones en virtud del Contrato.

https://www.wellsfargo.com/es/credit-cards/agreements/cash-back-college-card-agreement

3/31/2021

Contrato de Cuenta de la Tarjeta Wells Fargo Cash Back College Visa® – Wells Fargo

Page 8 of 11

(30) Ley que rige. La ley federal y las leyes de Dakota del Sur rigen este Contrato y su cuenta.
Volver al comienzo
Arbitraje
(31) Programa de Resolución de Disputas: Acuerdo de Arbitraje.
1. Arbitraje Obligatorio. Usted y Wells Fargo Bank, N.A. (el "Banco") acuerdan que si surge una Disputa entre usted y el Banco, a su solicitud o a solicitud
del Banco, la Disputa se resolverá mediante el siguiente proceso de arbitraje. A pesar de todo lo antes expuesto, el Banco no iniciará un arbitraje para
cobrar una deuda de consumidores; sin embargo, se reserva el derecho de llevar a arbitraje todas las otras disputas con sus clientes consumidores. Una
"Disputa" es cualquier desacuerdo entre usted y el Banco que no haya sido resuelto. Esto incluye cualquier desacuerdo vinculado de cualquier forma con
la Tarjeta o los servicios, las Cuentas u otros asuntos relacionados; con su uso de cualquiera de los establecimientos o las sucursales bancarias del Banco
o con cualquier medio que usted pueda usar para acceder al Banco. Incluye reclamos basados en promesas o contratos incumplidos, actos ilícitos u otras
acciones ilegítimas. Además, incluye los reclamos establecidos por ley, por el derecho común y por el derecho de equidad. Una Disputa también incluye
cualquier desacuerdo con respecto al significado o la aplicación de este Acuerdo de Arbitraje. Este Acuerdo de Arbitraje continuará en vigencia después
del pago o cierre de su Cuenta. USTED ENTIENDE Y ACUERDA QUE TANTO USTED COMO EL BANCO RENUNCIAN AL DERECHO A UN JUICIO
POR JURADO O A UN JUICIO ANTE UN JUEZ EN UN TRIBUNAL PÚBLICO. Como única excepción a este Acuerdo de Arbitraje, usted y el Banco
conservan el derecho a presentar ante un tribunal de reclamos de menor cuantía toda Disputa que esté comprendida dentro de la jurisdicción de dicho
tribunal. Si usted o el Banco no se someten al arbitraje obligatorio después de formulada una demanda legítima, la parte que incumpla será responsable de
todos los costos y gastos incurridos por la otra parte al hacer valer el arbitraje.
2. Procedimiento de Arbitraje; Divisibilidad. Usted o el Banco pueden someter, en cualquier momento, una Disputa a arbitraje obligatorio,
independientemente de que se haya presentado o no una demanda o iniciado otro procedimiento anteriormente. NI USTED NI EL BANCO TENDRÁN
DERECHO A UNIR O CONSOLIDAR DISPUTAS DE TERCEROS O CONTRA TERCEROS EN UN ARBITRAJE, NI A INCLUIR EN UN ARBITRAJE
ALGUNA DISPUTA FORMULADA EN CALIDAD DE REPRESENTANTE O INTEGRANTE DE UNA DEMANDA COLECTIVA, NI A ACTUAR EN UN
ARBITRAJE EN INTERÉS DEL PÚBLICO GENERAL O EN CALIDAD DE FISCAL GENERAL PRIVADO. Cada arbitraje, incluida la selección del (de los)
árbitro(s), será administrado por la Asociación Americana de Arbitraje (AAA), u otro administrador que usted y el Banco escojan de mutuo acuerdo (se hará
referencia de aquí en adelante a la AAA o al administrador que se escoja de mutuo acuerdo como el "Administrador del Arbitraje"), de acuerdo con las
Reglas de Arbitraje Comercial y los Procedimientos Suplementarios para Disputas Relacionadas con el Consumidor (las "Reglas de la AAA"). En la medida
en que exista alguna discrepancia entre las Reglas de la AAA y este Acuerdo de Arbitraje, este Acuerdo de Arbitraje prevalecerá. El (los) árbitro(s) debe(n)
ser miembro(s) del colegio de abogados del estado donde se lleve a cabo el arbitraje, con especialización en el derecho sustantivo pertinente al tema de la
Disputa. Ningún árbitro u otra parte de un procedimiento de arbitraje pueden divulgar la existencia, el contenido ni los resultados de dicho proceso, excepto
por las divulgaciones de información de una parte que sean requeridas en el curso ordinario de sus operaciones comerciales, o de conformidad con la ley o
los reglamentos aplicables. Usted y el Banco (las "Partes") acuerdan que en esta relación: (1) Las Partes están participando en transacciones que
involucran el comercio interestatal; y (2) este Acuerdo de Arbitraje y cualquier arbitraje resultante se regirán por las disposiciones de la Federal Arbitration
Act (Ley Federal de Arbitraje, Título 9 del Código de los Estados Unidos) y, en la medida en que cualquier disposición de esa Ley sea inaplicable, no
ejecutable o no válida, por las leyes del estado de Dakota del Sur. Si se determina que alguna disposición de este Acuerdo de Arbitraje que trata sobre una
demanda colectiva, arbitrajes colectivos, acciones presentadas por un fiscal general privado, otra acción representativa, unión o consolidación es ilegal o
no ejecutable, dicha disposición no válida no podrá ser separada del conjunto y este Acuerdo de Arbitraje será no ejecutable en su totalidad.
3. Derechos Conservados. Este Acuerdo de Arbitraje no prohíbe a las Partes el ejercicio de cualquier derecho legítimo o el uso de cualquier otro recurso
disponible para conservar, ejecutar u obtener posesión de bienes raíces o bienes muebles, ejercer recursos de autoayuda, incluidos los derechos de
compensación y recuperación, u obtener recursos provisionales o auxiliares, tales como interdictos, embargos, retención jurídica de bienes o el
nombramiento de un síndico por parte de un tribunal con jurisdicción competente. Toda prescripción aplicable a una Disputa se aplica a todo arbitraje entre
las Partes. Las disposiciones de este Acuerdo de Arbitraje continuarán en vigencia luego de la terminación, la modificación o el vencimiento de la Tarjeta o
de cualquier otra relación entre usted y el Banco.
4. Cargos y Gastos del Arbitraje. Los cargos del arbitraje se determinarán por las reglas o los procedimientos del Administrador del Arbitraje, a menos que
estén limitados por las leyes aplicables. Consulte con el Administrador del Arbitraje para determinar los cargos aplicables a todo arbitraje que usted pueda
presentar. Si las leyes aplicables del estado en el cual usted abrió su Cuenta limitan el monto de los cargos y gastos que usted deba pagar, entonces
ninguna asignación de cargos y gastos que se le haga a usted podrá exceder esa limitación. Salvo que esto sea inconsistente con las leyes aplicables,
cada uno de nosotros será responsable de los gastos por honorarios de nuestro propio abogado, peritos y testigos, independientemente de quién de
nosotros prevalezca en el arbitraje.
5. Military Lending Act (Ley de Préstamos para Militares). El Acuerdo de Arbitraje pueden no aplicarse en su caso si usted es un prestatario cubierto.
Consulte el Aviso sobre la Ley de Préstamos para Militares en el Contrato para obtener más información.
Volver al comienzo
Sus Derechos en Relación con la Facturación
Conserve este Aviso para Uso Futuro. Este aviso le informa sobre sus derechos y nuestras responsabilidades en virtud de la Fair Credit Billing Act (Ley sobre
Facturación de Crédito Equitativa).

(32) Qué Hacer Si Encuentra Un Error en Su Estado de Cuenta. Si cree que hay un error en su estado de cuenta, escríbanos a:
Wells Fargo Card Services
PO Box 522
Des Moines, IA 50306-0522

https://www.wellsfargo.com/es/credit-cards/agreements/cash-back-college-card-agreement

3/31/2021

Contrato de Cuenta de la Tarjeta Wells Fargo Cash Back College Visa® – Wells Fargo

Page 9 of 11

En su carta, proporciónenos la siguiente información:
◦ Su nombre y número de Cuenta.
◦ La fecha y el monto en dólares del presunto error.
◦ Si cree que hay un error en su cuenta, describa lo que cree que está mal y por qué cree que es un error.
Debe comunicarse con nosotros:
◦ En el transcurso de 60 días después de que haya aparecido el error en su estado de cuenta.
◦ Por lo menos 3 días laborables antes de que se programe un pago automatizado si desea suspender un pago respecto del monto que cree que es erróneo.
Debe notificarnos por escrito sobre cualquier posible error a la dirección consignada arriba. Puede notificarnos por cualquier otro medio (incluso por teléfono), pero
si lo hace, no estamos obligados a investigar cualquier posible error, y es probable que usted deba pagar el monto en cuestión.

Qué Sucederá Después de que Recibamos Su Carta.
En cuanto recibamos su carta, tendremos que tomar dos medidas:
1. En el transcurso de los 30 días posteriores a la recepción de su carta, debemos informarle que la hemos recibido. También le informaremos si ya hemos
corregido el error.
2. En el transcurso de los 90 días posteriores a la recepción de su carta, debemos corregir el error o explicarle por qué consideramos que la cuenta es
correcta.

Mientras investigamos si ha habido un error o no:
◦ No podemos intentar cobrar el monto en cuestión ni reportar que usted se encuentra en mora respecto de ese monto.
◦ El cargo en cuestión puede permanecer en su estado de cuenta, y nosotros podemos seguir cobrándole intereses sobre ese monto.
◦ Aunque no tenga que pagar el monto en cuestión, usted es responsable del monto restante de su saldo.
◦ Podemos aplicar cualquier monto impago contra su límite de crédito.
Después de finalizar nuestra investigación, sucederá alguno de estos dos hechos:
◦ Si cometimos un error: Usted no tendrá que pagar el monto en cuestión ni los intereses u otros cargos en relación con ese monto.
◦ Si no consideramos que haya habido un error: Usted tendrá que pagar el monto en cuestión, junto con los intereses y cargos aplicables. Le enviaremos una
declaración del monto adeudado por usted y la fecha en que vence el pago. Podemos reportar que usted se encuentra en mora si no paga el monto que
creemos que adeuda.
Si recibe nuestra explicación, pero sigue considerando que la cuenta es incorrecta, debe escribirnos en el transcurso de 10 días e indicarnos que sigue negándose
a pagar. Si lo hace, no podremos reportar que usted se encuentra en mora sin reportar también que usted está cuestionando nuestra cuenta. Debemos decirle el
nombre de cualquier tercero a quien le hayamos reportado que usted se encuentra en mora, y debemos informarles a esas organizaciones cuando la cuestión haya
sido resuelta entre nosotros. Si no cumplimos con todas las reglas arriba mencionadas, usted no tendrá que pagar el monto en cuestión, incluso si la cuenta es
correcta.

Sus Derechos Si No Está Satisfecho con Sus Compras con Tarjeta de Crédito. Si no está satisfecho con los bienes o servicios que ha comprado con su tarjeta
de crédito y ha intentado corregir de buena fe el problema con el comercio, usted puede tener derecho a no pagar el monto restante adeudado de la Compra.
Para ejercer este derecho, todos los siguientes enunciados deben ser ciertos:
1. La Compra debe haber sido realizada en su estado de residencia o a 100 millas de su dirección postal actual, y el precio de Compra debe haber sido
superior a $50. (Nota: No se aplican estos requisitos si su Compra se basó en un anuncio publicitario que le enviamos por correo postal, o si somos
propietarios de la compañía que le vendió los bienes o servicios).
2. Usted debe haber utilizado su tarjeta de crédito para la Compra. No califican las Compras realizadas con Adelantos en Efectivo de un ATM ni con un
cheque con acceso a su Cuenta de tarjeta de crédito.
3. No debe haber pagado todavía la Compra en su totalidad.
Si se cumplen todos los criterios arriba mencionados y aun así no está satisfecho con la Compra, comuníquese con nosotros por escrito a:
Wells Fargo Card Services
PO Box 522
Des Moines, IA 50306-0522

https://www.wellsfargo.com/es/credit-cards/agreements/cash-back-college-card-agreement

3/31/2021

Contrato de Cuenta de la Tarjeta Wells Fargo Cash Back College Visa® – Wells Fargo

Page 10 of 11

Mientras investigamos, se aplican las mismas reglas para el monto en disputa indicadas arriba. Después de finalizar nuestra investigación, le comunicaremos
nuestra decisión. En ese momento, si pensamos que usted adeuda un monto y no lo paga, podemos reportar que usted se encuentra en mora.
Volver al comienzo
Miembros de las Fuerzas Armadas en Servicio Militar Activo y sus Dependientes
(33) AVISO SOBRE LA MILITARY LENDING ACT (LEY DE PRÉSTAMOS PARA MILITARES): La ley federal brinda protecciones importantes para los miembros
de las Fuerzas Armadas y sus dependientes en relación con las extensiones de crédito al consumidor. En general, los costos del crédito al consumidor para un
miembro de las Fuerzas Armadas y su cónyuge o dependiente no pueden exceder una tasa porcentual anual del 36 por ciento. Esta tasa debe incluir, según
corresponda a la cuenta o transacción de crédito: el costo asociado a las primas del seguro de crédito, los cargos por productos auxiliares vendidos en relación con
la transacción de crédito, cualquier cuota de solicitud cobrada (a excepción de determinadas cuotas de solicitud para cuentas o transacciones de crédito
específicas), y cualquier cargo por participación que se cobre (a excepción de determinados cargos por participación para una cuenta de tarjeta de crédito).
Puede comunicarse con nosotros al 1-844-309-0044 (marque 9 para recibir atención en español) para obtener información sobre la Tasa Porcentual Anual para
Militares y una descripción de su obligación de pago.
El Acuerdo de Arbitraje no se aplica en su caso si usted está cubierto por la Ley de Préstamos para Militares ni las disposiciones de renuncia a los derechos de
presentar recursos legales en virtud de cualquier ley estatal o federal en la medida requerida por la Ley de Préstamos para Militares.
Volver al comienzo

Wells Fargo Card Services
PO Box 10347, Des Moines, IA 50306
1-800-642-4720 (marque 9 para atención en español)
Los clientes con discapacidades del habla o auditivas pueden llamar al número TTY 1-800-419-2265
Volver al comienzo

College SP 11/19

M-128585
LS 9383

Términos importantes de su Cuenta de Tarjeta de Crédito
Anexo de precios para de Crédito Wells Fargo Cash BackSM Card
Al 13 de marzo de 2021 (mes/día/año)

Tasas de Interés y Cargos por Intereses

La Tasa Preferencial + 7.90% a La Tasa Preferencial + 17.90%, según su
solvencia.
Tasa Porcentual Anual (APR, por sus
siglas en inglés) para Compras

Esta Tasa APR variará con el mercado, conforme a la Tasa Preferencial de EE.UU. Puede ser que usted no reúna
los requisitos para obtener las Tasas APR más bajas indicadas arriba. Las Tasas APR aplicables a su cuenta
serán determinadas según nuestra evaluación de su reporte crediticio, la información proporcionada por usted en
su solicitud y otra información pertinente que esté a nuestro alcance.
La Tasa Preferencial + 7.90% a La Tasa Preferencial + 17.90%, según su solvencia.

Tasa APR para Transferencias de Saldo

Esta Tasa APR variará con el mercado, conforme a la Tasa Preferencial de EE.UU. Puede ser que usted no reúna
los requisitos para obtener las Tasas APR más bajas indicadas arriba. Las Tasas APR aplicables a su cuenta
serán determinadas según nuestra evaluación de su reporte crediticio, la información proporcionada por usted en
su solicitud y otra información pertinente que esté a nuestro alcance.

Tasa APR para Adelantos en Efectivo y
Adelantos de Protección contra
Sobregiros

La Tasa Preferencial + 20.74%
Esta Tasa APR variará con el mercado, conforme a la Tasa Preferencial de EE.UU.

https://www.wellsfargo.com/es/credit-cards/agreements/cash-back-college-card-agreement

3/31/2021

Contrato de Cuenta de la Tarjeta Wells Fargo Cash Back College Visa® – Wells Fargo

Cómo evitar pagar intereses sobre
compras

Page 11 of 11

Su fecha de vencimiento es al menos 25 días después del cierre de cada período de facturación. No le cobraremos
intereses sobre las compras si usted paga la totalidad de su saldo cada mes a más tardar en la fecha de vencimiento.
Comenzaremos a cobrar intereses sobre adelantos en efectivo y transferencias de saldo en la fecha de la
transacción.

Cargo Mínimo por Intereses

Si se le cobran intereses, el cargo no será inferior a $1.00.

Sugerencias sobre Tarjetas de Crédito

Para obtener más información sobre los factores que se toman en consideración al solicitar o usar una tarjeta de

de la Oficina para la Protección
Financiera del Consumidor

crédito, visite el sitio Web de la Oficina para la Protección Financiera del Consumidor en
http://www.consumerfinance.gov/learnmore (en inglés).

Cargos y Cuotas
Cuota Anual

Ninguna

Cargos por Transacción
◾ Transferencias de Saldo

Hasta el 5% por cada transferencia por saldo, con un mínimo de $5.

◾ Adelantos en Efectivo

$10 o el 5.00% del monto de cada adelanto, lo que sea mayor.

◾ Adelantos de Protección contra
Sobregiros
◾ Conversión de Moneda Extranjera

$12.50 si el monto total de los adelantos de protección contra sobregiros para ese día es de $50 o menos;
$20 si el monto total de los adelantos de protección contra sobregiros para ese día es superior a $50.
El 3% de cada transacción convertida a dólares estadounidenses.

Cargos por Penalidad
◾ Pago Atrasado

Hasta $40

◾ Cheque Devuelto o Pago Devuelto

Hasta $40

Cómo calcularemos su saldo: Usamos un método denominado "saldo diario promedio (incluidas nuevas compras)." Consulte el Contrato para obtener más
detalles.
Cómo calcularemos sus Cargos por Pago Atrasado y Cheque Devuelto o Pago Devuelto: El cargo será el Pago Mínimo o $29, lo que sea menor. Para
cualquier evento posterior que ocurra dentro de un período ininterrumpido de seis ciclos de facturación, el cargo será el Pago Mínimo o $40, lo que sea menor.
Cómo calcularemos sus Tasas APR variables:
A menos que esté en vigencia una tasa APR introductoria o promocional, sumaremos un "Margen" a la Tasa Preferencial de EE.UU. para determinar su Tasa APR
variable estándar. Para cada período de facturación, usaremos la Tasa Preferencial de EE.UU. o el promedio de las Tasas Preferenciales de EE.UU., si hay más
de una, publicadas en la columna Money Rates del periódico The Wall Street Journal tres días laborables antes de la fecha de cierre de su estado de cuenta. La
Tasa APR puede aumentar o disminuir si la Tasa Preferencial de EE.UU. aumenta o disminuye, y esto también hará que la tasa periódica diaria relacionada
aumente o disminuya. Un aumento o una disminución en la Tasa APR pueden aumentar o disminuir el monto total de intereses que usted pague. También puede
aumentar o disminuir el Pago Mínimo adeudado. Para más detalles, consulte su Contrato del Cliente de Tarjeta de Crédito para el Consumidor y Declaración de
Divulgación.

Cálculo de la Tasa de Interés
Tasa Preferencial de EE.UU. vigente a partir del 03/31/2021 (mes/día/año)
Margen sumado a la Tasa Preferencial de EE.UU. a fin de determinar su Tasa APR para compras y transferencias de saldo

Tasa APR para compras y transferencias de saldo

Margen sumado a la Tasa Preferencial de EE.UU. a fin de determinar su Tasa APR para adelantos en efectivo y adelantos de protección
contra sobregiros
Tasa APR para adelantos en efectivo y adelantos de protección contra sobregiros

3.25%
7.90% - 17.90%
11.15% 21.15%

20.74%

23.99%

Volver al comienzo ▲

© 1999 - 2021 Wells Fargo. Todos los derechos reservados. NMLSR ID 399801

https://www.wellsfargo.com/es/credit-cards/agreements/cash-back-college-card-agreement

3/31/2021

